HHS/OIG-Audit--"Status Report - - Office of Inspector General/Department of Justice Joint Project - Review of Medicare Part B Billings by Physician Group Practices at Teaching Hospitals, (A-03-94-00016)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Status Report--Office of Inspector General/Department of Justice Joint Project - Review of Medicare Part
B Billings by Physician Group Practices at Teaching Hospitals," (A-03-94-00016)
March 13, 1996
Complete
Text of Report is available in PDF format (151 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This nationwide project involves a review of Medicare Part B billings by physician group practices at teaching hospitals
and is being conducted jointly by the OIG and the Department of Justice (DOJ). At the Clinical Practices of the University
of Pennsylvania (CPUP) the joint team found that for a significant number of Medicare Part B bills there was no documentation
in the medical records showing that a CPUP physician was present when a resident performed a medical service. Without such
documentation, these bills were ineligible for Medicare reimbursement. In other cases bills were upcoded, billed for a
more complex level of care than that which was provided, which resulted in increased Medicare reimbursement. As a result
of these findings CPUP agreed, in a settlement agreement, to pay over $30 million to the Federal Government for the improper
claims submitted during the period January 1, 1989 through December 31, 1994. The settlement agreement also requires CPUP
to develop and implement a corrective action plan to address the two major problems identified in our audit.